TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Systemic Penalties on Late-Filed Forms
                    Related to Certain Foreign Corporations
                       Were Properly Assessed, but the
                    Abatement Process Needs Improvement



                                      September 25, 2013

                              Reference Number: 2013-30-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


SYSTEMIC PENALTIES ON LATE-FILED                    Form 5471 penalties, the IRS objectives to
FORMS RELATED TO CERTAIN                            enhance revenue and improve taxpayer
FOREIGN CORPORATIONS WERE                           compliance were met.
PROPERLY ASSESSED, BUT THE                          However, controls are insufficient to ensure the
ABATEMENT PROCESS NEEDS                             proper abatement of systemically assessed
IMPROVEMENT                                         penalties on late-filed Forms 5471. Specifically,
                                                    in a statistically valid sample of 93 cases, the
                                                    penalties were incorrectly abated in 40 cases.
Highlights                                          Total abatements for these 40 cases amounted
                                                    to $1.75 million, resulting in approximately
Final Report issued on                              $31 million in incorrect abatements when
September 25, 2013                                  projected to the population. In addition, the IRS
                                                    did not properly process eight filing extensions.
Highlights of Reference Number: 2013-30-111         This led to $6.4 million in unnecessary late-filed
to the Internal Revenue Service Commissioners       Form 5471 penalty assessments ultimately
for the Large Business and International Division   being abated, resulting in approximately
and the Wage and Investment Division.               $11.6 million in incorrect assessments when
                                                    projected to the population. Further, in 80 of the
IMPACT ON TAXPAYERS                                 93 sampled cases, IRS employees did not
                                                    adequately document their decisions to abate
The law requires a U.S. citizen or resident alien   these penalties.
to furnish information with respect to certain
foreign business entities. Form 5471,               WHAT TIGTA RECOMMENDED
Information Return of U.S. Persons With
Respect to Certain Foreign Corporations, is         TIGTA recommended that the IRS: 1) conduct a
used to comply with the law and regulations.        study to determine if the automated late-filed
Further, the law provides a monetary penalty of     Form 5471 penalty-setting process should be
$10,000 for each Form 5471 that is filed after      expanded, 2) provide refresher training to
the due date of the associated income tax           employees and their managers on the importance
return, including any extensions. The IRS has       of documenting penalty abatement request
developed a strategy to help meet the               decisions, 3) require managers to review all
challenges of international tax administration.     late-filed Form 5471 penalty abatements, and
This has led to increased enforcement efforts on    4) ensure that filing extension requests received
international information reporting requirements    with a payment are properly coded and timely
and increased assessments of related penalties.     processed.

WHY TIGTA DID THE AUDIT                             In their response, IRS officials agreed with all of
                                                    our recommendations. The IRS has taken
One of the major trends challenging the IRS is      steps to implement two corrective actions and
accelerating globalization. The overall objective   plans to take remaining corrective actions in the
of the review was to determine whether the IRS      future.
has improved its penalty-setting process to
promote filing compliance for entities with
Form 5471 reporting requirements.
WHAT TIGTA FOUND
Overall, controls ensured that systemic penalties
for late-filed Forms 5471 were properly
assessed and compliance was improved for
many taxpayers. While a standardized
framework was not used to develop a pilot
program for systemically assessing late-filed
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2013


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Systemic Penalties on Late-Filed Forms Related
                             to Certain Foreign Corporations Were Properly Assessed, but the
                             Abatement Process Needs Improvement (Audit # 201130043)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has improved its penalty-setting process to promote filing compliance for entities with
 Form 5471, Information Return of United States Persons With Respect to Certain Foreign
 Corporations, reporting requirements. This audit is included in our Fiscal Year 2013 Annual
 Audit Plan and addresses the major management challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Nancy Nakamura, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                               Systemic Penalties on Late-Filed Forms Related to
                              Certain Foreign Corporations Were Properly Assessed,
                                 but the Abatement Process Needs Improvement




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Systemic Penalties for Late-Filed Forms 5471 Were
          Properly Assessed and Compliance Was Improved for
          Many Corporate Taxpayers........................................................................... Page 4
                    Recommendation 1:........................................................ Page 6

          Controls Over Abating Systemic Penalties on Late-Filed
          Forms 5471 Need Enhancement ................................................................... Page 7
                    Recommendations 2 and 3: .............................................. Page 11

                    Recommendation 4:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measures............................................................... Page 18
          Appendix V – Example of the Failure to File or Late Filed
          Form 5471 – Decision Tree .......................................................................... Page 23
          Appendix VI – Glossary of Terms ................................................................ Page 24
          Appendix VII – Management’s Response to the Draft Report ..................... Page 26
          Systemic Penalties on Late-Filed Forms Related to
         Certain Foreign Corporations Were Properly Assessed,
            but the Abatement Process Needs Improvement




                    Abbreviations

GAO           Government Accountability Office
I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
LB&I          Large Business and International
SB/SE         Small Business/Self-Employed
TIGTA         Treasury Inspector General for Tax Administration
                            Systemic Penalties on Late-Filed Forms Related to
                           Certain Foreign Corporations Were Properly Assessed,
                              but the Abatement Process Needs Improvement




                                               Background

One of the major trends challenging the Internal Revenue Service (IRS) is accelerating
globalization. To help meet the challenges of international tax administration, the IRS’s strategy
is to:
        Expand employee knowledge and awareness of international tax issues.
        Develop deep expertise and capabilities in key international issue areas.
        Enhance coordination with treaty partners and international organizations.
        Aggressively target areas of significant risk.
This has led to increased enforcement efforts on international information reporting requirements
and increased assessments of related penalties.
Internal Revenue Code (I.R.C.)1 Section (§) 6038(a) and Treasury Regulation § 1.6038-2(a)
require a U.S. citizen or resident alien2 to furnish information with respect to certain foreign
business entities. This information includes any foreign partnership/corporation entity data,
stock ownership data, financial statements, and
intercompany transactions with related persons. The
Form 5471, Information Return of U.S. Persons With               Penalties for not timely filing the
                                                                 Form 5471 are severe—$10,000
Respect to Certain Foreign Corporations, is used to                 for each Form 5471 that is
comply with the law and regulations.                              filed after the due date of the
                                                                               associated income tax return,
Penalties for not timely filing the Form 5471 are severe.        including any extensions.
I.R.C. § 6038(b)(1) provides for a monetary penalty of
$10,000 for each Form 5471 that is filed after the due
date of the associated income tax return, including any extensions.

In January 2009, the IRS began to systemically assess penalties for late-filed
Forms 5471 attached to some corporate tax returns
In response to a recommendation in a prior Treasury Inspector General for Tax Administration
(TIGTA) report,3 the IRS convened a cross-functional group to decide whether or not to pursue
automating the penalty-setting process for the Form 5471. The group analyzed the number of


1
  See Appendix VI for a glossary of terms.
2
  Generally, the categories of persons potentially liable for filing the Form 5471 are U.S. citizens, resident aliens,
U.S. domestic corporations, U.S. domestic partnerships, and U.S. domestic trusts.
3
  TIGTA, Ref. No. 2006-30-075, Automating the Penalty-Setting Process for Information Returns Related to
Foreign Operations and Transactions Shows Promise, but More Work Is Needed (May 2006).
                                                                                                                 Page 1
                           Systemic Penalties on Late-Filed Forms Related to
                          Certain Foreign Corporations Were Properly Assessed,
                             but the Abatement Process Needs Improvement



various tax returns with an attached Form 5471, which includes Form 1040, U.S. Individual
Income Tax Return, Form 1120, U.S. Corporation Income Tax Return, Form 1120-S, U.S.
Income Tax Return for an S Corporation, and Form 1065, U.S. Return of Partnership Income.
The IRS conducted a pilot study of Forms 5471 attached to a Form 1120, since this comprised
the largest volume of Forms 5471. Based on Tax Year 2004 data, the IRS estimated that if a
penalty was asserted on every late-filed Form 5471 attached to a Form 1120, and none of these
penalties were abated, approximately $88.6 million in additional revenue could be generated. If
the anticipated results of this pilot study provided revenue enhancements and improved filing
compliance, the IRS would consider investing additional resources to include Forms 1040 and
1065.
Figure 1 shows the penalties assessed and abated for Forms 5471 attached to late-filed
Forms 1120 for Processing Years 2008 through 2012. Prior to Processing Year 2009, all
I.R.C § 6038(b)(1) penalties on late-filed Forms 5471 attached to a Form 1120 were assessed
manually by IRS tax examiners during taxpayer audits. Under the pilot for Processing Years
2009 through 2012, the penalties on late-filed Forms 5471 were systemically assessed, resulting
in significantly more penalty assessments.
          Figure 1: Penalty Assessments and Abatements for the Form 5471
     Attached to a Late-Filed Form 1120 for Processing Years 2008 Through 2012

                                                                    Processing Year
                                               2008        2009        2010       2011       2012        Total

    Late-Filed Form 5471 Penalty
                                               $7.6        $71.5      $48.6      $54.3       $41.0      $215.4
    Assessments (Millions)
    Less Late-Filed Form 5471
                                              ($0.4)      ($56.0)    ($36.4)    ($41.0)     ($16.1)    ($149.5)
    Penalty Abatements (Millions)4
    Total Late-Filed Form 5471 Net
                                               $7.2        $15.5      $12.2      $13.3       $24.9       $65.9
    Penalty Assessments
    Rate of Return                             N/A*        22%         25%        24%        61%         31%
    Source: Our analysis of a Business Master File extract from the TIGTA Data Center Warehouse.
    *N/A = not applicable.

The IRS sends taxpayers a CP 215 notice (see Figure 2 for an example) when it systemically
assesses a late-filed Form 5471 penalty. Taxpayers can request that the IRS remove the penalty
by providing a reasonable cause for abatement.



4
 Abatements are usually processed the tax year following the penalty assessment. We matched the penalty
abatements with the corresponding year of penalty assessments as of April 25, 2013, to analyze the program results.
                                                                                                            Page 2
                          Systemic Penalties on Late-Filed Forms Related to
                         Certain Foreign Corporations Were Properly Assessed,
                            but the Abatement Process Needs Improvement



                             Figure 2: Example of a CP 215 Notice




          Source: IRS.

Reasonable cause is based on all the facts and circumstances in each situation and allows the IRS
to provide taxpayers relief from a penalty that would otherwise be assessed. Reasonable cause
relief is generally granted when taxpayers exercised ordinary business care and prudence in
determining their tax obligations but nevertheless failed to comply with those obligations. The
Philadelphia Accounts Management function primarily handles the reasonable cause abatement
requests resulting from systemic penalties on late-filed Forms 5471 attached to a Form 1120.
This review was performed at the Large Business and International (LB&I) Division5
Headquarters in Washington, D.C., and the Cincinnati, Ohio; Philadelphia, Pennsylvania; and
Ogden, Utah, Campuses during the period August 2011 through April 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


5
 The LB&I Division, formerly the Large and Mid-Size Business Division, became the LB&I Division on
October 1, 2010. LB&I Division is used throughout this report.
                                                                                                     Page 3
                          Systemic Penalties on Late-Filed Forms Related to
                         Certain Foreign Corporations Were Properly Assessed,
                            but the Abatement Process Needs Improvement




                                     Results of Review

Systemic Penalties for Late-Filed Forms 5471 Were Properly
Assessed and Compliance Was Improved for Many Corporate
Taxpayers
Systemic controls over assessing penalties on late-filed Forms 5471 attached to a Form 1120 are
working appropriately. A statistical sample of 94 penalty assessment cases from Processing
Year 2010 showed that for all 94 cases sampled, the systemic Form 5471 penalties were properly
assessed. These cases had penalty assessments totaling $5.3 million. This sample was selected
from a population of 1,507 business taxpayers6 with systemically assessed Form 5471 penalties
totaling approximately $48.6 million.
The due date for filing Form 5471 is the same as the income tax return to which it is attached.
The $10,000 penalty for each Form 5471 filed after the due date of the associated income tax
return applies whether or not any income tax is due.

The majority of taxpayers assessed the penalty complied with the law in the
following year
Additional testing of the 94 business taxpayers in our sample who were penalized for late filing
of their Forms 5471 during Processing Year 2010 showed that the majority complied with the
law in the following year. Of the 94 taxpayers:
       60 (64 percent) subsequently filed their Tax Year 2010 Forms 1120 with an attached
        Form 5471 timely in Processing Year 2011.
       14 (15 percent) subsequently filed their Tax Year 2010 Forms 1120 timely in Processing
        Year 2011, but did not attach a Form 5471. However, we could not determine whether or
        not these taxpayers were required to file a Form 5471 because the only way to make this
        determination would be through an audit of the tax return.
       9 (10 percent) subsequently filed their Tax Year 2010 Forms 1120 with an attached
        Form 5471 late in Processing Year 2011 and were assessed $920,000 in additional
        penalties.




6
  The 1,507 records were identified on the Business Master File with a Transaction Code 240 (assessment code) and
a Penalty Reference Number 599 (systemic assessment). See Appendix I for more details.
                                                                                                         Page 4
                           Systemic Penalties on Late-Filed Forms Related to
                          Certain Foreign Corporations Were Properly Assessed,
                             but the Abatement Process Needs Improvement



        11 (12 percent) did not file a Tax Year 2010 Form 1120 in Processing Year 2011. An
         examination would be required to determine if these taxpayers were required to file
         Forms 1120 and 5471 for Tax Year 2010.

Consideration should be given to expanding systemic penalty assessments to
other types of income tax and international information reporting returns
In addition to Form 5471, the I.R.C. § 6038(b)(1) penalty also applies to Form 5472, Information
Return of a 25% Foreign-Owned U.S. Corporation or a Foreign Corporation Engaged in a U.S.
Trade or Business. Therefore, the IRS should consider expanding the program to pursue
automating the penalty-setting process for any tax returns required to file that information return
as well, such as Forms 1040 and Forms 1065. If this automated penalty-setting process is
expanded, it could increase revenue and overall taxpayer compliance with the filing requirements
for other income tax and international information reporting returns.
According to IRS data, there were 10,255 late-filed Forms 5472 attached to a Form 1120 in
Processing Year 2011. Had the systemic penalty assessment process been expanded to the
Forms 5472 prior to Processing Year 2011, taxpayers could have potentially been assessed
approximately $103 million in late-filed Form 5472 penalties for that year. The IRS stated that it
implemented the systemic penalty for late-filed Forms 5472 attached to a Form 1120 in
January 2013. In addition, the IRS plans to implement the systemic penalty for late-filed
Forms 5471 attached to a Form 1065 in January 2014.

While a standardized framework was not in place for the development of the pilot
for the late-filed Form 5471 systemic penalty program, the program met its
established goals
An IRS cross-functional group conducted a study on automating the I.R.C. § 6038(b)(1)
penalty-setting process and recommended that the IRS systemically assess penalties on late-filed
Forms 5471 attached to a Form 1120. However, the IRS was unable to provide documentation to
support the study group’s decisions, the business case for development of a pilot program, or
information on the pilot testing7 of the program. When we discussed these issues with
LB&I Division management, they pointed out that the program was transferred to them from the
Small Business/Self-Employed (SB/SE) Division in December 2006.
Nevertheless, a standardized framework was not in place for the development of a business case
or the implementation of the pilot Form 5471 penalty assessment program. A best practice for
developing and implementing new business processes is to establish an overall approach that
contains the detailed steps for carrying out the various phases of an initiative. The Government
Accountability Office (GAO), together with experts from other Government entities and private

7
 Pilot testing is designed to provide an opportunity to test how a change works in actual practice and address
problem areas before full implementation.
                                                                                                             Page 5
                        Systemic Penalties on Late-Filed Forms Related to
                       Certain Foreign Corporations Were Properly Assessed,
                          but the Abatement Process Needs Improvement



industry, developed a 20-step approach to evaluate such initiatives.8 The 20 steps include an
approach to help ensure that potential obstacles are considered in planning, problems are
pinpointed and addressed through pilot testing, and results are evaluated accurately. The
standardized framework or similar practices establishes procedures and ensures that the project
contains the necessary documentation to support key decisions made during the planning,
execution, and implementation phases.
In response to a 2004 GAO report,9 the SB/SE Division Commissioner agreed with a
recommendation to put in place a framework to guide planning of future SB/SE Division process
improvement projects. Therefore, the SB/SE Division should have used a framework when it
began to plan, develop, and implement this pilot systemic penalty-setting program. Similarly,
the LB&I Division Commissioner issued a guidance memorandum in April 200910 that stressed
the importance of using a standardized framework for planning and carrying out major process
improvement initiatives.11 The memorandum outlined that the LB&I Division should begin
incorporating this practice into its procedures and stated that the use of a standardized framework
will help define in detail the activities managers will need to complete when undertaking future
initiatives.
Even though the IRS did not use a standardized framework to develop and evaluate a pilot prior
to implementing this process or follow internally issued guidance, IRS management did establish
two goals when they decided to pursue systemically assessing penalties on late-filed Forms 5471
attached to a Form 1120. These goals were to provide revenue enhancement and improve
taxpayer filing compliance. Based on the results of our review, the IRS met both goals.

Recommendation
The Commissioner, LB&I Division, should:
Recommendation 1: Conduct a study to determine if the automated penalty-setting process
should be expanded to other types of income tax and international information reporting returns.
The study should follow a standardized framework to ensure that any implemented changes are
evaluated and that the key decisions made during the planning, execution, and implementation
phases are adequately documented.
        Management’s Response: The IRS agreed with this recommendation. The
        LB&I Division will conduct a study of appropriate scope to determine if the automated


8
  GAO, GAO/AIMD-10.1.15 (version 3), Business Process Reengineering Assessment Guide p. 7 (May 1997).
9
  GAO, GAO-04-287, Planning for IRS's Enforcement Process Changes Included Many Key Steps but Can Be
Improved p. 6 (Jan. 20, 2004).
10
   LMSB 04-0209-007, Guidance Memorandum: Use of Standardized Frameworks for the Design and
Implementation of Major Process Improvement Initiatives (April 9, 2009).
11
   LMSB-4-0209-007, LMSB Commissioner and Executive Memorandums.
                                                                                                   Page 6
                           Systemic Penalties on Late-Filed Forms Related to
                          Certain Foreign Corporations Were Properly Assessed,
                             but the Abatement Process Needs Improvement



          penalty-setting process should be expanded within the context of international
          information reporting forms.

Controls Over Abating Systemic Penalties on Late-Filed Forms 5471
Need Enhancement
A statistical sample of 93 penalty abatement cases from a population of 1,617 business taxpayers
with penalty abatements showed that controls are insufficient to ensure the proper abatement of
systemically assessed penalties on late-filed Forms 5471. These penalties totaled approximately
$59.4 million and were abated during Processing Years 2008 through 2010.12
Once taxpayers are systemically assessed a late-filed Form 5471 penalty, they can request that
the IRS remove the penalty by providing a reasonable cause for abatement. Generally, to show
reasonable cause, taxpayers must demonstrate that they exercised ordinary care and prudence in
meeting their tax obligations but did not comply within the prescribed amount of time.
Of the 93 cases reviewed, the IRS appropriately abated 53 (57 percent) penalties that had been
assessed for late-filed Forms 5471 attached to a Form 1120. However, the penalties were
inappropriately abated for 40 (43 percent) cases. Figure 3 shows the results of our review.
                          Figure 3: Results of a TIGTA Review of
                   Ninety-Three Sampled Cases With Penalty Abatements

Number
of Cases      Percent13                                       Abatement Action

     53         57%         The IRS appropriately abated the penalties.
     18         19%         The taxpayers claimed that their Forms 1120 were timely filed, but they did not
                            provide any proof to support their claims. Based on the case files, the taxpayers’
                            Forms 1120 were filed late, and the penalties would still be applicable.
     6           6%         The taxpayers either submitted a Form 5471 as a first-time filer or claimed relief
                            as a first-time filer of the Form 5471. However, according to IRS policy, if a
                            taxpayer is claiming relief as a first-time filer, the abatement request is to be
                            denied.
     5           5%         The taxpayers claimed ignorance of the law regarding the filing requirements for
                            the Form 5471. The taxpayers’ reasonable cause requests stated that they
                            were either uninformed or relied on advice from tax professionals that were not
                            knowledgeable of this filing requirement. However, according to IRS policy, the
                            abatement request is to be denied if the taxpayer does not understand the law
                            or relied on bad advice.


12
   Of the 93 cases selected for review, we determined that three cases were worked by other units outside of the
Philadelphia Campus Accounts Management function.
13
   Percentage totals less than 100 percent due to rounding.
                                                                                                             Page 7
                             Systemic Penalties on Late-Filed Forms Related to
                            Certain Foreign Corporations Were Properly Assessed,
                               but the Abatement Process Needs Improvement




Number
of Cases         Percent                                        Abatement Action

       4           4%         The taxpayers claimed relief for not timely filing an extension. The taxpayers’
                              reasonable cause requests stated that this was caused by either an
                              unintentional taxpayer or tax preparer oversight. However, according to IRS
                              policy, the abatement request is to be denied if the taxpayer or their
                              representative forgot to request an extension.
       4           4%         The taxpayers claimed that they were unable to file a timely Form 1120 with an
                              attached Form 5471 because their records were unobtainable or because of
                              their financial situations. However, according to IRS policy, the abatement
                              request is to be denied even if the taxpayer is having difficulty in obtaining
                              his/her financial information or having financial problems. Further, IRS
                              procedures state that when the taxpayer’s unobtainable financial records
                              become available, the taxpayer has 90 days to file a timely Form 1120 with an
                              attached Form 5471.
     **1**         **1**      **********************************1**********************************
                              **********************************1****************************************
                              ******************1*******************
     **1**         **1**      ********************************************1**************************************
                              *********************************************1***************************************
                              *********************************************1***************************************
                              *******************************************1**********************************************
                              ***************************1********************
      93          100%
Source: The results of our analysis of 93 sampled cases.

IRS policy does not require managerial review and approval to abate systemically assessed
late-filed Form 5471 penalties. Currently, managers only review a sample of these penalty
abatements after the fact as part of their Embedded Quality reviews.
Incorrect abatements for these cases totaled approximately $1.75 million. When we discussed
these cases with IRS management, they agreed that the improper abatements occurred as a result
of IRS employees accepting and not evaluating the taxpayers’ reasonable cause requests in
accordance with the Internal Revenue Manual criteria.14 This resulted in an average incorrect
penalty abatement of $19,207 per case. Based on our stratified random sample, we project that
improving controls over the abatement process could potentially prevent approximately




14
     Internal Revenue Manual 21.8.2.21.2(4) (Oct. 1, 2010).
                                                                                                                Page 8
                          Systemic Penalties on Late-Filed Forms Related to
                         Certain Foreign Corporations Were Properly Assessed,
                            but the Abatement Process Needs Improvement



$31 million in incorrect abatements15 for 710 business taxpayers, or an estimated $155 million
for 3,550 business taxpayers over five years.16

While a majority of taxpayer abatement requests were properly granted, some
filing extension requests were not recognized, resulting in unnecessary late-filed
Form 5471 penalty assessments
While these 53 of the 93 cases reviewed were properly abated, we found late-filed Form 5471
penalties were unnecessarily assessed in eight (15 percent) of the 53 cases because the IRS did
not properly process the taxpayers’ Forms 7004, Application for Automatic Extension of Time to
File Certain Business Income Tax, Information, and Other Returns.
For these eight cases, the taxpayers timely submitted a filing extension with their payments by
the original due dates of the Forms 1120. While the IRS processed the taxpayers’ payments
correctly, it did not properly process the six-month filing extensions on the Forms 1120, which
ultimately resulted in these taxpayers being unnecessarily assessed $6.4 million in late-filed
Form 5471 penalties that were ultimately abated.
When we discussed these cases with the IRS, officials      The IRS did not properly process
explained that if taxpayers submit payments with their      the six-month filing extensions
                                                               for eight Forms 1120, which
extension requests, the Master File codes the                      ultimately resulted in
documents differently than if the taxpayers submit an          $6.4 million of unnecessary
extension without a payment. Because of the                  late-filed Form 5471 penalties.
differences in coding, the Master File will not generate
a systemic extension of the tax return due date when
taxpayers submit payments along with their extension requests.
Prior to implementing the systemic late-filed Form 5471 penalty assessments, there was no
significant effect on taxpayers if the IRS did not process their extensions. However, since the
implementation of the systemic penalty, if the IRS does not process the extension and the
taxpayers file their tax returns after the original return due date, it will result in a systemic
late-filed Form 5471 penalty.
Based on our stratified random sample, we project that improving the systemic processing of
Form 7004 received with a payment will prevent approximately $11.6 million in unnecessary
Form 5471 penalty assessments17 and reduce taxpayer burden on approximately 125 business
taxpayers, or an estimated $58 million for 625 business taxpayers over five years.



15
   We are 95 percent confident that the range of potential incorrect abatements is between $10.3 and $51.8 million.
16
   See Appendix IV for details on the methodologies used to project the outcomes.
17
   We are 95 percent confident that the range of potential abatements of unnecessary Form 5471 penalty assessments
is between $6.4 and $18.8 million.
                                                                                                           Page 9
                            Systemic Penalties on Late-Filed Forms Related to
                           Certain Foreign Corporations Were Properly Assessed,
                              but the Abatement Process Needs Improvement



Employees did not always properly document decisions related to abating
penalties or denying taxpayers’ reasonable cause requests
For 80 (86 percent)18 of the 93 cases in our sample, Accounts Management function employees
did not appropriately document their decisions to abate the penalty or deny the taxpayers’
reasonable cause requests in accordance with internal procedures. Specifically:
        60 cases lacked any documentation as to why the employee granted the penalty abatement.
        20 cases contained documentation concerning the section of the Failure to File or Late
         Filed – Form 5471 Decision Tree19 (the decision tree) used but not the specific question
         which led to the employee’s decision to abate the penalty.
When the IRS receives a taxpayer’s reasonable cause request to have a systemically assessed
late-filed Form 5471 penalty abated, an Accounts Management employee should evaluate the
request using the decision tree. The decision tree was designed to assist employees in
determining whether a request to abate the late-filed Form 5471 penalty for reasonable cause
should be granted, denied, or referred to a specialist or the Examination function. The decision
tree provides a list of questions that require a “Yes” or “No” response under an “If” and “Then”
conditional statement to determine whether the penalty should be abated or the reasonable cause
request denied.
The Internal Revenue Manual20 also requires employees to notate the section and specific question
in the decision tree that led to his/her determination to abate the penalty or to deny the reasonable
cause request. Without proper use of the decision tree, employees have not adequately
documented the decision to abate these penalties. In addition, the employee’s manager would not
be able to validate whether the case resolution was appropriate. Managers did not review during
their quality review process the 80 potentially erroneous cases we identified.
In addition, IRS management stated that quality reviewers have not identified documentation of the
use of the decision tree as a concern. However, if the decision tree is not used for the
determination of a penalty, this would be considered a fatal error that directly affects the taxpayer.21
A review of first-line manager performance feedback recorded in the Embedded Quality Review
System on 56 late-filed Form 5471 penalty abatement cases22 showed that the managers provided
written feedback on some of these cases. However, the feedback given about documenting the


18
   Of the 80 case files that lacked adequate documentation to support the employee’s decision to abate the late-filed
Form 5471 penalty,******************************1**********************************************
****************1*************.
19
   Internal Revenue Manual Exhibit 21.8.2-1 (Nov. 23, 2012). See Appendix V for more details.
20
   Internal Revenue Manual 21.8.2.21.2(4) (Oct. 1, 2010).
21
   Fatal errors are defined as customer accuracy defects that directly affect the taxpayer and their issue or case if not
resolved or answered correctly.
22
   None of our sampled cases were quality reviewed as part of the Embedded Quality Review System.
                                                                                                                Page 10
                       Systemic Penalties on Late-Filed Forms Related to
                      Certain Foreign Corporations Were Properly Assessed,
                         but the Abatement Process Needs Improvement



use of the decision tree was minimal. We do not know whether this was because managers had
overlooked any insufficient documentation in the case files or whether there was sufficient
documentation in almost all of the 56 case files that were quality reviewed. Of the 56 quality
reviews performed by managers, only three provided written feedback on the employee’s lack of
documentation of the decision tree results. In total, this included:
      You are required to use Decision Tree and notate in the remark section of your
       adjustment. IRM [Internal Revenue Manual] 21.8.2.21.2.
      IRM [Internal Revenue Manual] 21.8.2.21.2 was not followed – you did not notate in the
       remarks section of the ADJ54 which question, in which section of the Penalty Tree
       [Decision Tree], led to your decision to abate the reasonable cause request.
      Since you did not follow the IRM [Internal Revenue Manual] guidelines mentioned above,
       you failed to notate in the remarks section of the ADJ54 which question, in which section
       of the Penalty Tree [Decision Tree], led to your decision to abate.
Based on our sample results, managerial controls are insufficient to ensure that employees
adequately document their case files explaining why the taxpayers’ reasonable cause requests are
being granted or denied. Without adequate documentation controls in place, there is a risk that the
IRS could continue to lose revenue as a result of incorrectly abating late-filed Form 5471 penalties.
Based on our statistical sample, we project that improving controls over accurately documenting
the abatement decision process could provide reliable and supportive information to the accounts
of approximately 1,420 business taxpayers. We are 95 percent confident that the range of
potential business taxpayers is between 1,300 and 1,500. Projected over five years, this could
affect approximately 7,100 business taxpayers.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Provide refresher training to Accounts Management function employees
and their managers on the importance of documenting late-filed Form 5471 penalty abatement
request decisions.
       Management’s Response: The IRS agreed with this recommendation. As of
       March 31, 2013, the processing of the Form 5471 was moved from the Philadelphia
       Accounts Management Campus to the Ogden Accounts Management Campus. The staff
       was trained when the work was transitioned to the new campus. Employees will continue
       to receive necessary updates on processing the Form 5471 as part of their Continuing
       Professional Education sessions.
Recommendation 3: Require managers to review and approve all late-filed Form 5471
penalty abatements prior to case closure.
                                                                                             Page 11
                     Systemic Penalties on Late-Filed Forms Related to
                    Certain Foreign Corporations Were Properly Assessed,
                       but the Abatement Process Needs Improvement



      Management’s Response: The IRS agreed with this recommendation. On
      June 26, 2013, Accounts Management issued a procedural update for Internal Revenue
      Manual 21.8.2 to require managers to review and approve all late-filed Form 5471
      penalty abatements.
Recommendation 4: Coordinate with the Information Technology organization to ensure that
filing extension requests received with a payment are properly coded and timely processed.
      Management’s Response: The IRS agreed with this recommendation. Submission
      Processing’s Paper Processing Branch will investigate the coding and processing of the
      extensions. If the Information Technology organization requires a work request for any
      proposed revision of the programming for the extension, the Paper Processing Branch
      will provide it. Implementation of any work request is contingent on the approval of the
      work request by the Information Technology organization and budgetary constraints.




                                                                                       Page 12
                             Systemic Penalties on Late-Filed Forms Related to
                            Certain Foreign Corporations Were Properly Assessed,
                               but the Abatement Process Needs Improvement



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has improved its penalty-setting process
to promote filing compliance for entities with Form 5471, Information Return of U.S. Persons
With Respect to Certain Foreign Corporations, reporting requirements. To achieve this
objective, we:
I.         Determined whether controls are in place to properly assess late-filed Forms 5471
           penalties.
           A. Reviewed the I.R.C.,1 Internal Revenue Manual, U.S. Department of the Treasury
              Regulations, and publications regarding assessing late-filed penalties for Forms 5471.
           B. Interviewed IRS officials at the Cincinnati, Ohio; Philadelphia, Pennsylvania; and
              Ogden, Utah, Campuses to obtain an understanding of all the policies, procedures,
              and practices the IRS has established for detecting and addressing filing compliance
              with Forms 5471. This included gaining an understanding of the procedures for
              processing and assessing penalties for the late-filed Forms 5471.
           C. Determined the population of penalties assessed for late-filed Forms 5471 during
              Processing Years 2008 through 2010 by obtaining an extract from the TIGTA Data
              Center Warehouse’s Business Master File using Transaction Code 240 with Penalty
              Reference Numbers 599, 619, or 623. To verify the accuracy of the extract, we
              selected a random sample of 10 transactions from the Business Master File data and
              matched them to the Integrated Data Retrieval System.
           D. Determined whether the automated assessment of penalties for late-filed Forms 1120,
              U.S. Corporation Income Tax Return, with a Form 5471 attached increased taxpayer
              compliance. We selected a stratified random sample of systemically assessed
              penalties on the Business Master File using a Transaction Code 240 with a Penalty
              Reference Number 599 from a universe of 1,507 records in Processing Year 2010.
              We used a confidence level of 95 percent, a precision of ± 10 percent, and an
              expected error rate of 50 percent. We conducted research using the Integrated Data
              Retrieval System to determine a taxpayer’s history of compliance in prior and
              subsequent filing years. The accuracy of our sampling methodology was reviewed
              and confirmed by our contracted statistician.



1
    See Appendix VI for a glossary of terms.
                                                                                               Page 13
                      Systemic Penalties on Late-Filed Forms Related to
                     Certain Foreign Corporations Were Properly Assessed,
                        but the Abatement Process Needs Improvement



 II.   Determined whether controls are in place to properly abate penalties for late-filed
       Forms 5471.
       A. Interviewed IRS officials at the Philadelphia, Pennsylvania, and Ogden, Utah,
          Campuses to obtain an understanding of the policies, procedures, and practices the
          IRS has established for abating penalties for late-filed Forms 5471.
       B. Obtained an extract from the TIGTA Data Center Warehouse’s Business Master File
          for Processing Years 2008 through 2010 for Forms 5471 using Transaction Code 241
          with a Penalty Reference Number 599, 619, or 623. We selected and reviewed a
          stratified random sample from 1,617 Business Master File records, using a confidence
          level of 95 percent, a precision of ± 10 percent, and an expected error rate of
          50 percent. To verify the accuracy of the extract, we selected a random sample of
          10 transactions from the Business Master File data and matched them to the
          Integrated Data Retrieval System. The accuracy of our sampling methodology was
          reviewed and confirmed by our contracted statistician.
       C. Obtained the case files for the above samples and reviewed the documentation
          provided to determine whether the reasonable cause was sufficient to abate the
          penalty.
       D. Identified the total number of records and penalties that were improperly abated and
          projected this amount over the universe of Business Master File records for
          Processing Years 2008 through 2010.
       E. Evaluated the Philadelphia, Pennsylvania, Campus Accounts Management function
          performance management process for abating late-filed Form 5471 penalties to
          determine whether management is ensuring that Form 5471 penalty cases are being
          properly documented in accordance with Internal Revenue Manual 21.8.2.21.2(4).
          1. Obtained copies of the Examination Quality Review System reports for Fiscal
             Years 2010 and 2011 and identified the Data Collection Instrument numbers for
             the late-filed Form 5471 penalty cases and reviewed them on the Examination
             Quality Review System.
          2. Determined whether the Accounts Management performance management
             process ensured that the decision tree was documented in the case files in
             accordance with the Internal Revenue Manual procedures.
III.   Determined the status of corrective actions taken by the IRS on prior TIGTA
       recommendations related to Form 5471.
       A. Evaluated the methodology for initiating and monitoring the pilot program of the
          automated penalty-setting process for late-filed Forms 5471 attached to a Form 1120.


                                                                                             Page 14
                        Systemic Penalties on Late-Filed Forms Related to
                       Certain Foreign Corporations Were Properly Assessed,
                          but the Abatement Process Needs Improvement



        B. Assessed the pilot using the GAO’s 20-step approach based on its Business Process
           Reengineering Assessment Guide2 to determine if a framework was in place to
           accurately and reliably evaluate the results.
        C. Discussed our results with IRS officials and obtained their feedback.
Data validation methodology
During this review, we obtained Form 5471 penalty assessment and Form 5471 penalty
abatement data from the TIGTA Data Center Warehouse’s Business Master File. To evaluate
the accuracy of this data, we selected certain data fields for review, such as the taxpayer’s
employer identification number, tax period, and dollar amount of assessment or abatement. We
then verified the data to ensure that the data we obtained for the penalty assessments and
abatements matched what is on the Integrated Data Retrieval System. These tests determined
that the data were sufficiently reliable and could be used to meet the objective of this audit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the Wage and Investment
Division’s Accounts Management function processes and procedures for processing taxpayer
abatement requests; Office of Management and Budget Circular A-123, Management’s
Responsibility for Internal Controls; SB/SE Division guidance for process improvement projects
(GAO-04-287); and LMSB 04-0209-007, Guidance Memorandum on Use of Standardized
Frameworks for the Design and Implementation of Major Process Improvement Initiatives. We
evaluated these controls by reviewing source materials, interviewing management, and analyzing
a sample of late-filed Form 5471 penalty assessments from Processing Year 2010 and Form 5471
penalty abatements in Processing Years 2008 through 2010.




2
 GAO, GAO-04-287, Planning for IRS’s Enforcement Process Changes Included Many Key Steps but Can Be
Improved p. 21 (Jan. 20, 2004).
                                                                                                Page 15
                     Systemic Penalties on Late-Filed Forms Related to
                    Certain Foreign Corporations Were Properly Assessed,
                       but the Abatement Process Needs Improvement



                                                                            Appendix II

                Major Contributors to This Report

Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Christina Dreyer, Audit Manager
Melvin Thomas, Lead Auditor
Ken Henderson, Senior Auditor
Margaret F. Filippelli, Senior Auditor




                                                                                    Page 16
                      Systemic Penalties on Late-Filed Forms Related to
                     Certain Foreign Corporations Were Properly Assessed,
                        but the Abatement Process Needs Improvement



                                                                              Appendix III

                          Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (International), Large Business and International Division SE:LB
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, International Business Compliance, Large Business and International Division
SE:LB:IN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Large Business and International Division SE:LB




                                                                                         Page 17
                       Systemic Penalties on Late-Filed Forms Related to
                      Certain Foreign Corporations Were Properly Assessed,
                         but the Abatement Process Needs Improvement



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $31 million for 710 business taxpayers per year, or
    $155 million for 3,550 business taxpayers over the next five years (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 1,617 Form 5471, Information Return of U.S. Persons With Respect to Certain
Foreign Corporations, penalty abatement records from an extract of the Business Master File
using Transaction Code 241 with Penalty Reference Number 599, 619, or 623 for Processing
Years 2008 through 2010. For the first population, we selected a stratified random sample of
**1** cases using a confidence level of 95 percent, a precision of ± 10 percent, and an expected
error rate of 50 percent. Since all of these abatement cases were less than $1 million, we also
selected a second population of the **1** business taxpayer cases that were more than
$1 million. This resulted in a combined population of 93 abatement cases selected for review.
From our sample of 93 abatement cases, we determined that three abatements were not worked
in the Accounts Management function.
Based on our stratified random sample, we determined that 40 of the 93 cases were incorrectly
abated because the taxpayers’ reasonable cause requests did not justify abating the late-filed
Form 5471 penalty. These 40 cases had a total of $1.75 million in abatements. To project the
results of our sample, we used a stratified random sample with a weighted average of
$19,207 per case. Projecting this weighted average over the stratified population of **1** cases,
we estimate that improving controls over the abatement process could potentially protect revenue
of approximately $31 million per year for 710 business taxpayers, or $155 million for
3,550 business taxpayers over the next five years. Figure 1 shows the projection to the
population.




                                                                                          Page 18
                           Systemic Penalties on Late-Filed Forms Related to
                          Certain Foreign Corporations Were Properly Assessed,
                             but the Abatement Process Needs Improvement



                          Figure 1: Weighted Average and Projection
                     for Stratified Random Sample (Incorrect Abatements)
                                                   Abatements            Abatements
                                                    Less Than             More Than
                                                     $1 Million            $1 Million                  Total
    Population Data:
    Population                                             **1**                 **1**                 1,617
    Population Percentage                                  **1**                 **1**             100.00%
    Sample Data:
    Sample Cases Reviewed                                  **1**                 **1**                    93
    Number of Errors                                       **1**                 **1**                    40
    Weighted Average Error Rate                            **1**                  **1**             43.91%1
    Total Dollars on Error Cases                           **1**                 **1**                 $1.75
    (in millions)
    Error Dollars Per Case:                                                                      $19,230.77
    (Total Error Dollars [$1,750,000] / Sample Cases Reviewed [91])

    Weighted Average Error Dollars Per Case:
    (Error Dollars Per Case [$19,230.77] x Population Percentage [99.88%])                       $19,207.00
    Weighted Average Error Dollars Per Year:
    (Error Rate [$19,207.00] x Population [1,617])                                               $31 million
    Weighted Average Over 5 Years:
    ($31 Million x 5 Years)                                                                     $155 million
    Number of Business Taxpayers Per Year:
    (Weighted Average Error Rate [43.91%] x Population [1,617])                                          710
    Number of Business Taxpayers Over 5 Years:
     (Projected Errors Over 5 Years: 710 x 5 Years)                                                     3,550
                                                       2
    Source: Data obtained from the Business Master File and our analysis of the abatement cases reviewed.



1
  The combined weighted average error rate of 43.91 percent is computed by multiplying the abatement percentage
of ***1** for the less than $1 million population by the weighted average error rate of **1**, which equals
***1***. We then added the abatement percentage of **1** for the more than $1 million population and multiplied
by the weighted average error rate of zero, which equals zero, for a combined weighted average error rate of
43.91 percent.
2
  See Appendix VI for a glossary of terms.
                                                                                                       Page 19
                      Systemic Penalties on Late-Filed Forms Related to
                     Certain Foreign Corporations Were Properly Assessed,
                        but the Abatement Process Needs Improvement



Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; $11.6 million for 125 business taxpayers per year, or
    $58 million for 625 business taxpayers over the next five years (see page 7).

Methodology Used to Measure the Reported Benefit:
Based on our stratified random sample, we determined that eight of the 93 Form 5471 penalties
were unnecessarily assessed because the IRS did not properly process the taxpayer’s Form 7004,
Application for Automatic Extension of Time to File Certain Business Income Tax, Information,
and Other Returns. For these eight cases, the taxpayers timely submitted an extension with a
payment by the due date of the Form 1120. While the IRS processed the taxpayers’ payments
correctly, it did not properly process the six-month filing extension on the Form 1120,
Corporate Tax Return, which ultimately resulted in these taxpayers being unnecessarily assessed
$6.4 million in late-filed Form 5471 penalties. To project the results of our sample, we used a
stratified random sample with a weighted average. Projecting this weighted average over the
stratified population of 1,617 cases, we estimate that improving the systemic processing of
corporate return filing extensions received with a payment will prevent unnecessary Form 5471
penalty assessments from taking place and reduce taxpayer burden on approximately
$11.6 million in unnecessary assessments for 125 business taxpayers, or an estimated
$58 million for 625 business taxpayers over five years. Figure 2 shows the projection to the
population.




                                                                                         Page 20
                           Systemic Penalties on Late-Filed Forms Related to
                          Certain Foreign Corporations Were Properly Assessed,
                             but the Abatement Process Needs Improvement



                       Figure 2: Weighted Average and Projection for
                   Stratified Random Sample (Unnecessary Assessments)
                                                    Abatements            Abatements
                                                     Less Than             More Than
                                                      $1 Million            $1 Million                 Total
    Population Data:
    Population                                                 **1**             **1**                 1,617
    Population Percentage                                      **1**             **1**             100.00%
    Sample Data:
    Sampled Cases Reviewed                                     **1**             **1**                    93
    Number of Errors                                           **1**             **1**                     8
    Weighted Average Error Rate                                **1**             **1**               7.74%3
    Total Dollars on Error Cases                           ***1***              ***1***        $6.41 million
    Average Error Dollars
                                                           ***1***              ***1***
    (Total Error Dollars / Sample Cases)
    Weighted Average Error Dollars Per Case:
    (Error Dollars Per Case [***1***] x Population Percentage [***1***)                              $3,402
    Weighted Average Error Dollars Per Year:
    (Error Dollars [$3,402] x Population [***1***] = ***1***) Plus                             $11.6 million
    (Error Dollars [***1***] x Population [**1**] = ***1***)
    Weighted Average Over 5 Years:
    ($11.6 Million x 5 Years)                                                                    $58 million
    Number of Business Taxpayers Per Year:
    (Population Weighted Average Error Rate [7.74%] x Population [1,617])                                125
    Number of Business Taxpayers Over 5 Years:
     (Projected Errors Over 5 Years 125 x 5 Years)                                                        625
    Source: Data obtained from the Business Master File and our analysis of the abatement cases reviewed.



3
 The combined weighted average error rate of 7.74 percent is computed by multiplying the percentage of ***1***
for the abatements of the less than $1 million population by the weighted average error rate of ***1***, which
equals ***1***. We then added the percentage of ***1*** for the abatements of the more than $1 million
population and multiplied by the weighted average error rate of ***1***, which equals ***1***, for a combined
weighted average error rate of 7.74 percent.
                                                                                                       Page 21
                             Systemic Penalties on Late-Filed Forms Related to
                            Certain Foreign Corporations Were Properly Assessed,
                               but the Abatement Process Needs Improvement



Type and Value of Outcome Measure:
      Reliability of Information – Potential; the accounts of 1,420 business taxpayers, or 7,100
       business taxpayers over the next five years (see page 7).

Methodology Used to Measure the Reported Benefit:
Based on our stratified random sample, we identified that, for 80 of the 93 cases worked in the
Accounts Management function, IRS employees did not adequately document the decision tree
penalty abatement resolutions in accordance with Internal Revenue Manual procedures. More
specifically, 60 cases lacked any documentation as to why IRS employees allowed the penalty to
be abated. In the remaining 20 cases, IRS employees documented the section of the decision tree
but did not document the question that led to their decision to abate the penalty.
We project that improving controls over documenting the decision tree could provide reliable
and supportive information to the accounts of approximately 1,420 business taxpayers as to why
the taxpayers’ requests to abate the late-filed Form 5471 penalties were granted or denied. In
addition, this could affect the accounts of approximately 7,100 business taxpayers over five years.
Figure 3 shows the weighted average calculations and the projection to the population.
                         Figure 3: Weighted Average and Projection for
                  Stratified Random Sample (Documenting the Decision Tree)
                                                          Abatements               Abatements
                                                           Less Than                More Than
                                                            $1 Million               $1 Million             Total
    Population Data:
    Population                                                  ***1***                    **1**             1,617
    Population Percentage                                       ***1***                   ***1***            100%
    Sample Data:
    Sample Cases Reviewed                                       ***1***                    **1**                93
    Number of Documentation Errors                              ***1***                    **1**                80
    Weighted Average Error Rate                                 ***1***                   ***1***       87.80%4
    Number of Business Taxpayers Per Year:
    (Error Rate 87.80% x Population 1,617)                                                                   1,420
     (Projected Errors Over 5 Years 1,420 x 5 years)                                                         7,100
    Source: Data obtained from the Business Master File and our analysis of the abatement cases reviewed.

4
 The combined weighted average error rate of 7.74 percent is computed by multiplying the percentage of ***1***
for the abatements of the less than $1 million population by the weighted average error rate of ***1***, which
equals ***1***. We then added the percentage of ***1*** for the abatements of the more than $1 million
population and multiplied by the weighted average error rate of zero, which equals zero, for a combined weighted
average error rate of 87.80 percent.
                                                                                                            Page 22
                   Systemic Penalties on Late-Filed Forms Related to
                  Certain Foreign Corporations Were Properly Assessed,
                     but the Abatement Process Needs Improvement



                                                                    Appendix V

            Example of the Failure to File or
          Late Filed Form 5471 – Decision Tree




Source: Internal Revenue Manual Exhibit 21.8.2-1 (Nov. 23, 2012).

                                                                         Page 23
                    Systemic Penalties on Late-Filed Forms Related to
                   Certain Foreign Corporations Were Properly Assessed,
                      but the Abatement Process Needs Improvement



                                                                             Appendix VI

                             Glossary of Terms

Term                               Definition
Business Master File               The IRS database that consists of Federal tax–related
                                   transactions and accounts for businesses. These include
                                   employment taxes, income taxes on businesses, and
                                   excise taxes.
Data Center Warehouse              A TIGTA Office of Information Technology function that
                                   obtains and stores numerous IRS data files and makes
                                   them available to auditors and investigators.
Embedded Quality Review            A tool that is designed to assist managers in identifying
System                             areas of strengths and weaknesses in their employees’
                                   individual performance as it relates to case activities.
Fiscal Year                        A 12-consecutive-month period ending on the last day of
                                   any month. The Federal Government’s fiscal year begins
                                   on October 1 and ends on September 30.
Integrated Data Retrieval System   An IRS computer system capable of retrieving or updating
                                   stored information. It works in conjunction with a
                                   taxpayer’s account records.
Internal Revenue Code (I.R.C.)     The codified collection of U.S. laws on income, estate and
                                   gift, employment, and excise taxes, plus administrative
                                   and procedural provisions.
Internal Revenue Manual            The official source of information on policies and
                                   procedures for use by all IRS offices.
Master File                        The IRS database that stores various types of taxpayer
                                   account information. This database includes individual,
                                   business, and employee plans and exempt organizations
                                   data.
Offshore Voluntary Disclosure      An IRS program designed to bring taxpayers who have
Program                            used undisclosed foreign accounts and undisclosed
                                   foreign entities to avoid or evade tax into compliance with
                                   U.S. tax laws.




                                                                                        Page 24
                    Systemic Penalties on Late-Filed Forms Related to
                   Certain Foreign Corporations Were Properly Assessed,
                      but the Abatement Process Needs Improvement



Term                           Definition
Penalty Reference Number       Penalty Reference Numbers are used to document the
                               assessment and abatement of miscellaneous civil
                               penalties on the Master File.
Processing Year                The calendar year in which the tax return or related
                               document is processed by the IRS.
Reasonable Cause               Reasonable cause is based on all the facts and
                               circumstances in each situation and allows the IRS to
                               provide relief from a penalty that would otherwise be
                               assessed. Reasonable cause relief is generally granted
                               when the taxpayer exercised ordinary business care and
                               prudence in determining their tax obligations but
                               nevertheless failed to comply with those obligations.
Tax Year                       The 12-month period for which tax is calculated. For
                               most individual taxpayers, the tax year is synonymous
                               with the calendar year.
Transaction Code               A three-digit code used to identify actions being taken on
                               a taxpayer’s account on the Master File.




                                                                                  Page 25
       Systemic Penalties on Late-Filed Forms Related to
      Certain Foreign Corporations Were Properly Assessed,
         but the Abatement Process Needs Improvement



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 26
 Systemic Penalties on Late-Filed Forms Related to
Certain Foreign Corporations Were Properly Assessed,
   but the Abatement Process Needs Improvement




                                                   Page 27
 Systemic Penalties on Late-Filed Forms Related to
Certain Foreign Corporations Were Properly Assessed,
   but the Abatement Process Needs Improvement




                                                   Page 28
 Systemic Penalties on Late-Filed Forms Related to
Certain Foreign Corporations Were Properly Assessed,
   but the Abatement Process Needs Improvement




                                                   Page 29
 Systemic Penalties on Late-Filed Forms Related to
Certain Foreign Corporations Were Properly Assessed,
   but the Abatement Process Needs Improvement




                                                   Page 30
